Audit of USAID/Iraq’s Economic Reform
Program
Audit Report Number E-266-04-004-P
September 20, 2004




                     Baghdad, Iraq
September 20, 2004


MEMORANDUM
FOR:          USAID/Iraq Mission Director, James E. Stephenson

FROM:         Regional Inspector General, Baghdad, Christine M. Byrne /s/

SUBJECT:      Audit of USAID/Iraq’s Economic Reform Program
              (Report No. E-266-04-004-P)

This memorandum transmits our final report on the subject audit. In finalizing the report,
we considered your comments on the draft report and have included them, excluding
attachments, as Appendix II.

The report contains two recommendations for corrective action. In your written
comments, you concurred with the recommendations and provided evidence of actions
taken to address the auditors’ concerns. Based upon the actions taken to address these
concerns, we consider that a management decision has been reached and final action has
been taken on both recommendations.

I want to express my sincere appreciation for the cooperation and courtesies extended to
Office of Inspector General staff during this audit.
(This page intentionally left blank)




                                       2
Table of   Summary of Results.......................................................................................... 5
Contents
           Background ....................................................................................................... 5

           Audit Objective................................................................................................. 6

           Audit Findings .................................................................................................. 6

                      Did USAID/Iraq’s economic reform program achieve its
                      intended outputs? ...................................................................................6

                                 Record Management Procedures Need to be Improved ............8

                                 Contractor Reporting Requirements Need to be Improved .....10

           Evaluation of Management Comments............................................................11

           Appendix I – Scope and Methodology ............................................................13

           Appendix II – Management Comments...........................................................15

           Appendix III – Schedule of Activties ..............................................................17




                                                                                                                                  3
(This page intentionally left blank)




                                       4
Summary of   The Regional Inspector General in Baghdad, Iraq conducted this audit to determine
Results      whether USAID/Iraq’s Economic Reform Program had achieved its intended
             outputs. (See page 6.)

             The audit found that the Mission’s program had partially achieved its intended
             outputs. Based on our review of documentation at the Mission and with the
             contractor, only 10 of the 38 planned activities were completed, while 6 were
             cancelled and the remaining 22 were still in progress as of May 31, 2004. (See
             Appendix III for a complete list of these activities.) Most of the activities had not
             yet been completed due to challenges beyond USAID/Iraq’s control. These
             challenges included the unique management structure of the program and the
             difficult security environment under which USAID/Iraq and its implementing
             partner operated. (See page 6.)

             However, two other issues were identified. Specifically, the Mission needs to: 1)
             improve its recordkeeping procedures for documenting actions, decisions and the
             status of activities; and 2) revise its contractor reporting requirements to allow the
             Mission to monitor progress under the contract more effectively. We made two
             recommendations to address these issues. (See pages 10 and 11.)

             The Mission concurred with the two audit recommendations and provided
             evidence that it had instituted new documentation procedures and reporting
             requirements to address the auditors’ concerns. Based on the Mission’s response,
             we consider final action to have been taken on both recommendations.



Background   Since the 1980s, Iraq’s economy has been in a state of despair due to wars and the
             United Nations’ economic sanctions. During this post-war period, the Coalition
             Provisional Authority’s1 (CPA’s) objectives have been to provide financial market
             structures, as well as fiscal and regulatory conditions that will promote sustainable
             economic growth, development of a private sector, creation of jobs and rising living
             standards for the Iraqi people.

             In support of the CPA’s policy objectives, USAID awarded a $79.6 million cost-
             plus-fixed-fee, level of effort contract in July 2003 to Bearing Point, Inc. (Bearing
             Point) to provide economic reform for Iraq as well as to stimulate the country’s
             international trade engagement, increase employment, and create broad-based

             1
               The Coalition Provisional Authority (CPA) is the name of the temporary governing body which
             was designated by the United Nations as the lawful government of Iraq until such time as Iraq was
             politically and socially stable enough to assume its sovereignty. The CPA began operations
             following the overthrow of Saddam Hussein and his Baath Regime in April of 2003 and continued
             until the CPA was dissolved on June 28, 2004 when Iraq became a sovereign nation.



                                                                                                            5
                  prosperity. The contract covered a one-year base period, but allows for two, one-
                  year option periods. The total contract cost including the base period and two option
                  periods is $240 million. As of June 21, 2004, USAID/Iraq had cumulative
                  obligations and disbursements totaling $79.6 million and $53.8 million, respectively.

                  The contract described the work to be performed and expected results within the
                  following five broad sectors encompassing economic reform:

                        Economic Governance
                        Microeconomic Foundations for Growth
                        Privatization
                        Credit Activities
                        Food for Oil

                  During the base year of the contract, USAID/Iraq issued 13 action memorandums,
                  approved by the CPA, which authorized 38 activities to be carried out under the
                  contract. All of these activities fell within the five sectors listed above.



Audit Objective   USAID’s Office of Inspector General has developed an audit strategy to address
                  performance and financial issues being faced by USAID during its
                  implementation of reconstruction efforts in Iraq. The Regional Inspector General
                  in Baghdad conducted this audit to answer the following objective:

                  Did USAID/Iraq’s Economic Reform Program achieve its intended outputs?

                  Appendix I contains a complete discussion of the audit scope and methodology.



Audit Findings    As of May 31, 2004, USAID/Iraq’s Economic Reform Program partially achieved
                  the intended outputs that were scheduled to be completed by the end of the
                  contract.

                  Based on our review of the contractor’s performance reports and documentation
                  on file at the Mission, only 10 of the 38 planned activities had been completed,
                  while 6 were cancelled and the remaining 22 were still in process as of May 31,
                  2004. (See Appendix III for a complete list of these activities.) According to
                  USAID staff, all but one of these activities—the implementation of a financial
                  management information system (FMIS)—were originally expected to be
                  completed by the end of the contract base period (July 17, 2004). On July 17,
                  2004, subsequent to our fieldwork, USAID issued a modification to the contract
                  (Modification No. 6) authorizing an extension to September 30, 2004 in order to


                                                                                                     6
allow the contractor additional time to complete the FMIS activity, as well as the
21 other remaining activities.

USAID/Iraq’s achievements under the ten completed activities contributed to the
CPA’s economic objectives for laying a foundation for a free-market economy
and resulted in the following:

       Drafting of 12 commercial laws.

       Creation of 77,000 jobs.

       Completion of an assessment of state-owned enterprises.

       Development of a budget planning process.

       Assistance in developing a presentation on Iraq’s capital programming
        requirements for the 2003 Donors’ Conference.

       Technical assistance in managing a currency exchange project.

       Development of an intergovernmental policy framework.

       Development of a regulatory framework for public utilities.

       Processing and administration of contracts for the Oil for Food Program.

       Development of a government-wide information technology strategy.

With regards to the activities that were still in process as of May 31, 2004, we
concluded that the activities were delayed due to challenges caused by events and
circumstances outside of USAID/Iraq’s control.

One of the challenges was the limited control that USAID/Iraq had in managing this
program. As a development agency, USAID often adopts a long-term perspective
that focuses on building the host country’s capacity and self sufficiency in order to
promote self government. On the other hand, the CPA was more focused on
addressing near-term priorities that would affect an orderly transition of power to a
sovereign Iraqi government. Consequently, there were different priorities based
upon these discrete institutional approaches and roles. As a result of the different
priorities, the Mission could not exercise its normal latitude and control in
addressing problems in the design and implementation of its activities.2


2
 On June 28, 2004, the CPA ceased operations and transferred authority for policy direction to the
Chief of Mission for the new U.S. Embassy in Iraq.


                                                                                                7
The other challenge the Mission and Bearing Point were faced with was the
security situation in Iraq, which was much worse than initially anticipated. Due
to the hostile work environment in Iraq, Bearing Point’s ability to implement
activities under the economic reform program and the Mission’s ability to monitor
these activities was severely restricted. This led to the cancellation of some
activities and delays in the implementation of many others.

In addition to causing delays in the implementation of activities, the security
situation resulted in an increase in security costs. For example, Bearing Point, in
its cost proposal, proposed to spend approximately $894,000 for security costs
during the base year of the contract, but later estimated its actual security costs at
closer to $37 million―representing 49 percent of the total costs.

This issue was previously addressed in a memorandum (AIG/A 04-005), dated
March 22, 2004, covering our review of USAID’s compliance with Federal
regulations in awarding the contract for economic recovery, reform and sustained
growth in which we reported that security costs are difficult to accurately
estimate. As such, we recommended that when requesting proposals for future
awards in Iraq, USAID’s Bureau for Management, Office of Acquisition and
Assistance provide solicitation instructions that will allow for adequate
documentation to properly evaluate the contractors’ proposed security costs.

As a result of the delays caused by the challenges cited above, many of the program
activities were still in process as of May 31, 2004. It was uncertain whether those
activities scheduled to be completed by the end of the base year (July 17, 2004)
would all be completed by this date or if they would continue to remain in process,
thereby delaying the potential economic benefits to be derived from the program.
Since the challenges contributing to the delays were determined to be beyond
USAID/Iraq’s control, we are not making a recommendation on this issue.

However, the Mission needs to improve its record management procedures and its
contractor reporting requirements to help ensure intended results are being
achieved. These areas of improvement are discussed below.


Record Management Procedures
Need to be Improved

Summary: Cognizant Technical Officers (CTOs) should maintain a work file that
documents all significant actions associated with each contract. USAID/Iraq’s
technical   staff, however,
USAID's Guidebook                   routinely
                         for Managers     and CTOsusedstates
                                                          electronic
                                                               that CTOscopies
                                                                           shouldof    e-maila
                                                                                   maintain
correspondence     to  document      site  visits,  official  requests,  actions
work file that documents all significant actions associated with each contract,   taken   and
adjustments
including anytotechnical
                 activities.directions
                                 This informal
                                         given to process    for documenting
                                                    the contractor.   This workactions   was
                                                                                  file should
primarily  the result
contain enough    detailofsothe
                             thatMission’s   reliance
                                  the contracting       on contracted
                                                     officer             technical
                                                             can reconstruct  whatstaff   that
                                                                                     the CTO
were
did ornot
       didfully familiar
           not do  in the with
                           eventUSAID’s      documentation
                                  of a contract    dispute. procedures. The absence of
a proper work file could result in a misunderstanding of direction and negatively
impact the Mission’s ability to effectively monitor the contract and report results.

                                                                                            8
USAID’s Automated Directives System (ADS) 502 states that the Agency’s
current electronic mail (e-mail) system is not designed to serve as a recordkeeping
system. Therefore, key records kept on this system should also be kept in a file
that maintains a hardcopy of the document. The mandatory reference to ADS 502
also provides that core document files should include, among other things, general
and action memoranda and implementation documents.

Contrary to the above policy and guidance, USAID/Iraq’s technical staff routinely
used electronic copies of e-mail correspondence to document site visits, official
requests, actions taken, adjustments to activities and reiterations of significant
discussion points under the contract.

This reliance on an informal recordkeeping system, consisting mostly of electronic
copies of e-mail correspondence to document significant events, reduces the
likelihood that the Mission will maintain a complete hardcopy file of documents as
required. Such a file is needed, not only for recordkeeping purposes, but also for
future reference in the event of a dispute or a turnover of staff. The absence of such
a file could result in a misunderstanding of direction and negatively impact the
Mission’s ability to effectively monitor the contract and report results.

For example, we examined a project in which Bearing Point, at the request of the
CPA’s Private Sector Development Office, provided technical assistance to Iraqi
firms with the specific aim of preparing them to qualify for credit from bank and
non-bank direct lending organizations. In inquiring about the status of this project,
USAID/Iraq technical staff claimed that the activity had been cancelled because of
implementation problems and insufficient funding. Bearing Point, however,
appeared to be forging ahead with this activity toward completion and expected to
incur $865,000 in costs for the level of effort expended on this activity. Although
we later verified that the activity had, in fact, been cancelled, this had to be done
through further discussions with Mission staff since there was no documentation
supporting the Mission’s contention that the activity had been cancelled.

USAID/Iraq’s informal process for documenting actions was due, in part, to the
Mission’s reliance on contractor staff to manage the program. The Mission cited
this heavy reliance on contractor personnel to staff technical and project
management positions as a material weakness in its annual self assessment of
management controls as required under the Federal Managers’ Financial Integrity
Act for fiscal year 2003. To address this reported weakness, the Mission has
taken action to increase the number of positions filled by USAID direct hire
employees. The contractor’s lack of familiarity with prescribed documentation
procedures was further exacerbated by the high turnover of staff. Since the
inception of the program, there has been a myriad of changes, including a large
turnover of responsible Mission, CPA and contractor staff, brought on by the
changing political and security environment in Iraq.




                                                                                    9
While we recognize that the Mission has been operating in a difficult working
environment, we believe the nature of this environment underscores the need to
maintain a formal work file to document, at a minimum, the significant decisions
affecting the status of activities. Such a file would not only help to ensure that
pertinent management information is readily available, but also facilitate the
continuity of activities when there are staff changes. Since USAID policy
supports the need to maintain such a file, we recommend the following:

       Recommendation No. 1: We recommend that USAID/Iraq
       implement USAID’s documentation management procedures
       requiring decisions impacting on the design and status of
       activities to be officially documented in the activity file.


Contractor Reporting Requirements
Need to be Improved
Summary: General performance monitoring involves determining contractor
progress towards achieving the goals and objectives of the contract and
identifying any factors that may delay or prevent the accomplishment of those
goals and objectives. USAID/Iraq’s technical staff did not have sufficient detail
to thoroughly monitor Bearing Point’s progress and results. This occurred
because the billing documentation and financial status reports furnished by the
contractor did not provide sufficient information to enable the Mission to monitor
progress at the activity level. As a result, it was not possible to measure the level
of effort or progress under each activity.

USAID Acquisition Regulation 742.1170-1 states that general performance
monitoring is a function of contract administration and involves determining
contractor progress towards achieving the goals and objectives of the contract and
identifying any factors that may delay or prevent the accomplishment of those
goals and objectives. Providing this level of oversight requires USAID personnel
to maintain adequate knowledge of the contractor’s activities and progress to
ensure that USAID’s objectives, as stated in the contract’s statement of work, will
be achieved. In addition, ADS 202.3.6 states that monitoring the quality and
timeliness of outputs produced by implementing partners represents an important
task of the CTO since outputs are critical for achieving results and prompt action
to address problems is essential in managing for results.

Although USAID/Iraq’s technical staff did review the contractor’s monthly
progress reports and held periodic meetings with contractor personnel to discuss
the activities, the extent of information provided by the contractor was not always
adequate for monitoring purposes. Specifically, the billing documentation and
financial status reports furnished by the contractor did not provide sufficient
information to enable the Mission to monitor progress (cumulative level of effort
expended) at the activity level. While the Mission requested and received

                                                                                  10
                additional financial data, beyond that furnished by the contractor to comply with
                the reporting requirements, this data was summarized at the sector level and did
                not indicate the level of effort incurred for each of the activities under each sector.

                Since USAID’s contract with Bearing Point was based on level of effort, the
                scope of work specified the number of days budgeted under the contract to
                complete the work. In this case, the contract obligated Bearing Point to work
                34,800 days during the first year of performance and allocated these work days
                among six broad sectors, each with its own set of program activities.

                Under the Economic Governance sector, for example, the contract called for
                15,300 days of technical services, representing approximately 44 percent of the
                total level of effort budgeted. USAID/Iraq and the CPA authorized Bearing Point
                to work on 16 different activities under this sector. According to the contractor’s
                June 2004 performance report, it was estimated that the total number of days that
                would actually be incurred under this sector through the end of the contract would
                be only 5,346 days—35 percent of what was originally budgeted. Unfortunately,
                the contractor’s reporting of the number of days actually billed under this sector
                did not provide a breakdown by activity. As a result, the data reported was not
                sufficient to allow USAID/Iraq’s technical team to monitor the progress under
                each activity so as to identify which activities were making little progress and
                possibly experiencing problems.

                For USAID/Iraq to be able to better monitor a contract of this type in the future
                and assess whether the contractor is expending the level of effort for which the
                contract price and fixed fee were based, a more detailed level of reporting is
                needed. Since the Bearing Point contract is scheduled to end September 30, 2004,
                we are recommending the following:

                       Recommendation No. 2: We recommend that, for future
                       contracting actions under the Economic Reform Program,
                       USAID/Iraq develop procedures to ensure that contractors
                       furnish monthly financial reports that present a breakdown of
                       the actual level of effort billed for the month by activity.



Evaluation of   In response to our draft report, USAID/Iraq concurred with the two audit
Management      recommendations and provided evidence indicating that it had already taken
Comments        action to address the auditors’ concerns with respect to each of the
                recommendations. Specifically, in response to Recommendation No. 1, Mission
                management stated that its Office of Economic Growth had established and
                implemented new documentation management procedures.               These new
                procedures, which are effective immediately, require all activity managers and
                Cognizant Technical Officers (CTOs) within the office to maintain a work file
                that documents all significant actions associated with each contract. The

                                                                                                    11
procedures also require all electronic communications to be printed and stored in
the work file in accordance with ADS 502. In addition to providing a copy of an
internal memo outlining these new procedures, the Mission’s response included
guidance sent to the Mission’s Office of Economic Growth reminding the CTO of
their responsibility for establishing and maintaining adequate work files and
specified the documentation these files, at a minimum, must contain.

In response to Recommendation No. 2, the Mission stated that the Office of
Economic Growth had developed new reporting requirements that have been
implemented for all new contractors. These new requirements include monthly
financial reports with a revised reporting format that provides more detailed
information on the contractor’s activities. Some of the additional information that
will now be required to be furnished by the contractor includes the following:

      Narrative on results achieved by activity, including benchmarks and
       results achieved.
      Advisors by activity and work location.
      Level of effort expended under each activity.
      Overall expenditures and expenditures at the activity level.

The Mission furnished a copy of the new reporting requirements that it stated has
been implemented for all new contractors and incorporated into their contracts.

Based on the above actions by the Mission to address auditors’ concerns, we
consider both recommendations to have received a management decision and final
action taken upon issuance of this report.




                                                                                12
                                                                                      Appendix I


Scope and     Scope
Methodology
              The Regional Inspector General’s Office in Baghdad, Iraq conducted this audit in
              accordance with generally accepted government auditing standards. The purpose
              of the audit was to determine whether contracted activities performed under
              USAID/Iraq’s Economic Reform Program achieved their intended outputs.

              Program activities were carried out under a $79.6 million cost-plus-fixed-fee,
              level of effort USAID contract awarded to Bearing Point, Inc. (Bearing Point), in
              July 2003, to provide economic reform for Iraq. This contract consisted of a one-
              year base period and two, one-year option periods. The total contract cost
              including the base period and two option periods is $240 million. The audit
              focused on program activities performed during the initial base period which
              covered the period from July 18, 2003 through July 17, 2004. During this period,
              USAID/Iraq issued 13 action memorandums authorizing a total of 38 activities to
              be performed by the contractor, with all but one of these activities—the
              implementation of a financial management information system—expected to be
              completed by the end of the base period.

              In conducting this audit, we reviewed each of the 38 activities as of May 31,
              2004, focusing particularly on verifying the status of six activities the Mission
              reported as cancelled as of this date. Our analysis of whether the program
              achieved its intended outputs was limited to ascertaining whether the critical tasks
              under each activity, excluding those that had been cancelled, had been completed
              and did not involve an assessment of the results (i.e., impact) of these individual
              tasks or activities. As of June 21, 2004, funds obligated and disbursed under the
              program totaled $79.6 million and $53.8 million, respectively.

              In addition, although not directly related to the audit objective, the audit included
              an examination of management controls relating to the management review,
              monitoring, and reporting of activities implemented under the economic reform
              program. Specifically, these controls included:

                     Performing site visits.
                     Reviewing performance and financial reports.
                     Performing an annual self assessment of management controls as required
                      under the Federal Managers’ Financial Integrity Act.

              The audit also involved interviews with key program staff at the USAID/Iraq
              Mission and technical staff at the offices of the Coalition Provisional Authority
              (CPA) and Bearing Point, all located within the Green Zone in Baghdad, Iraq.



                                                                                                13
The audit fieldwork was performed from May 11, 2004 to July 1, 2004 and was
limited to interviews with technical staff and review of relevant performance and
financial documents. The audit team was not able to visit any of the activity sites
due to security restrictions at the time of the fieldwork.

Methodology

To answer the audit objective, we interviewed officials from the USAID/Iraq
Mission and its contractor, Bearing Point, and four senior advisors from the CPA.
We also examined available program documents furnished by the Mission and
Bearing Point. This documentation included the contract, action memorandums,
correspondence, the Mission’s self assessment report for fiscal year 2003 in
compliance with the Federal Managers Financial Integrity Act, performance work
plans, monthly performance and financial reports, and public vouchers submitted by
the contractor from inception through May 31, 2004. As part of our planning work,
we also examined prior audits conducted by the Defense Contract Audit Agency on
Bearing Point.

In examining these documents, we performed limited tests of the procedures and
controls relating to the Mission’s monitoring of the contract and the contractor’s
reporting of results. This included assessing the actual level of effort expended
under the contract with respect to the ten completed activities reported, as well as
verifying the cancellation of six activities.

Our materiality threshold for this audit was established at 10 percent. In other
words, if 90 percent or more of the outputs were determined to have been achieved
as of May 31, 2004, this would result in an unqualified opinion to the audit
objective.




                                                                                 14
                                                                                     Appendix II


Management
Comments



                            United States Agency For International Development
                                              Baghdad, Iraq




                                                                          September 6, 2004


         ACTION MEMORANDUM


         To:           Regional Inspector General/Iraq, Christine Byrne

         From:         USAID/Iraq Deputy Mission Director, Chris Milligan /s/

         Subject:      USAID/Iraq Written Comments on Audit Report No.
                       E-266-04-00x-P (Audit on USAID/Iraq’s Economic Reform Program)

         USAID/Iraq has reviewed the subject report in detail and we would like to thank you for
         the professional work by your office on the subject audit. We appreciate your efforts to
         review our Economic Reform Program and your recommendations to improve its
         implementation. In a stressful and insecure environment, USAID had managed an
         economic reform program that rapidly contributed to laying an essential foundation for a
         free-market economy in Iraq within nine months.

         USAID/Iraq agrees with the required actions by making the two management decisions
         and the final actions implemented for the two audit recommendations.

         Recommendation No. 1: We recommend that USAID/Iraq implement its
         documentation management procedures requiring decisions impacting on the design
         and status of activities to be officially documented in the activity field.

         Action Taken: USAID/Iraq’s Office of Economic Growth has established and
         implemented management procedures (see attachments 1 and 2) requiring work files to
         include documents of significant actions and electronic communication printouts
         associated with each contract.

                                                                                               15
Recommendation No. 2: We recommend that for future contracting actions under
the Economic Reform Program, USAID/Iraq develop procedures to ensure that
contractors furnish monthly financial reports that present a breakdown of the
actual level of effort billed for the month by activity.

Action Taken: USAID/Iraq’s Office of Economic Growth has developed monthly
financial reports that include detailed information on contractors’ activities. This new
reporting requirement has been implemented for all new contractors (see attachments 1
and 3).




                                                                                           16
                                                                                      Appendix III

Schedule of Activities Through May 31, 2004

 #                Description of Activities                                 Status

1.   Provide technical assistance for procurement and     Cancelled. Coalition Provisional Authority
     implementation of an inter-bank payment system.      (CPA) advisor cancelled this activity and
                                                          redirected contractor to work on another
                                                          activity not approved by USAID/Iraq.
2.   Complete an assessment of the entire population of   In Progress.
     state-owned enterprises (200) to identify which 10
     are the most viable and which 10 are the least.
3.   Develop and implement mechanisms for making          In Progress.
     sizable loans to small and mid-sized enterprises.
4.   Review 12 key commercial laws and make               Completed.
     recommendations to amend or introduce new laws
     that create an investor friendly, market-driven
     economic legal framework.
5.   Design and implement a public works program that     Completed.
     creates 77,000 jobs. (Note: This number was scaled
     back from 300,000 due to funding limitations.)
6.   Review state-owned insurance companies and           Completed.
     recommend under what conditions companies can
     be reactivated. Also, perform assessment of the
     regulatory framework for the insurance sector.
7.   Procure and implement a comprehensive financial      In Progress.
     management information system for the Ministry of
     Finance.
8.   Implement a budget planning system.                  Completed.
9.   Provide assistance in developing a presentation of   Completed.
     Iraq’s capital programming requirements for
     October 2003 donors' conference in Madrid.
10. Perform review and evaluation of existing tax         In Progress.
    policy in law and practice.
11. Provide assistance in developing strategy for         In Progress.
    reforming and reactivating tax administration.
12. Provide assistance with day-to-day tasks in           Completed.
    managing the currency exchange project.




                                                                                                 17
Schedule of Activities (continued)                                                          Appendix III


#                 Description of Activities                                     Status

13. Establish rules for intervening in the currency         In Progress.
    market to help stabilize the exchange rate and set
    up statistics division at the Central Bank.
14. Provide assistance to the Electricity Commission        In Progress.
    in developing a strategy to increase commercial
    viability of the state-owned power company.
15. Provide assistance to the Electricity Commission        In Progress.
    in developing an electricity sector master plan to
    be used as basis for generation and transmission
    investment decisions for period 2004-2010.
16. Provide assistance to the Electricity Commission        In Progress.
    in building its financial capacity.
17. Provide assistance in the introduction and              In Progress.
    implementation of various domestic taxes.
18. Provide assistance to large commercial banking          In Progress.
    institutions and develop/implement framework for
    an inter-bank payment system.
19. Provide assistance to develop an assessment of          Completed.
    intergovernmental finance and possible interim
    measures to improve flow of funds between the
    central and local levels of government.
20. Perform planning, program management support,           In Progress.
    analysis, logistics, reporting, data applications and
    communications for the Oil for Food Program.
21. Provide assistance to the CPA senior advisor to the     Cancelled. Activity was cancelled due to
    Ministry of Transportation in development of            departure of the CPA senior advisor at the
    policy framework for transportation subsectors.         Ministry of Transportation.
22. (1) Train Iraqi ministries of Agriculture,              In Progress.
    Electricity, Telecommunications and Water and
    Sanitation on executing capital programs in their
    sectors; and (2) Train Iraqi counterparts in
    financial over-sight and contract administration.
23. Provide assistance in establishing an umbrella          Completed.
    public utilities regulatory agency encompassing
    power, water, telecommunications and petroleum.
24. Provide assistance to Ministry of Electricity to        Completed.
    strengthen its capacity to assume management
    responsibility over the Oil For Food contracts and
    purchase orders being transferred to it.

                                                                                                         18
Schedule of Activities (continued)                                                        Appendix III


                  Description of Activities                                Comments

25. Provide technical assistance to the Ministry of        Completed.
    Transportation and Communication to create an
    integrated Information Technology strategy.
26. Develop a Master Plan for telecommunications           In Progress.
    infrastructure in Iraq providing guidance for policy
    decisions, regulation and reconstruction.
27. Provide technical assistance to the Ministry of        In Progress.
    Transportation and Communication in creating a
    strategy for reforming and developing Iraq’s
    telecommunications sector.
28. Implement the Business Development Center              In Progress.
    Program.
29. Provide technical assistance to the Ministry of        In Progress.
    Finance in conducting legal research on foreign
    attachment issues potentially affecting Rafidain
    and/or Rasheed Bank.
30. Provide assistance to the Ministry of Finance in       In Progress.
    designing statistical collection and reporting
    capabilities of the Central Statistics Office.
31. Provide assistance to the CPA to assist Iraqi firms    Cancelled. Activity cancelled due to time
    and prepare them to qualify for credit from bank       and funding limitations and delay in arrival
    and non-bank direct lending organizations.             of contractor’s advisor.
32. Provide technical assistance to support Iraq’s entry   Cancelled. Activity cancelled due to time
    into the World Trade Organization and training to      and funding limitations, given low priority.
    ministries involved.
33. Provide assistance to the Ministry of Electricity to   In Progress.
    evaluate system operations for Summer 2004.
34. Provide technical assistance to the Ministry of        Cancelled. Activity cancelled due to time
    Trade to implement a company registration system       and funding limitations; Mission also did
    and develop its institutional capacity.                not consider this a priority activity.
35. Review financial statements for each of the 17         Cancelled. Activity cancelled due to
    private banks licensed in Iraq.                        funding limitations.
36. Provide assistance to the Ministry of Finance to       In Progress.
    collect and evaluate national income data.
37. Provide technical assistance to the Private Sector     In Progress.
    Development Office by carrying out specific tasks
    for the Iraq Depository and Iraq Stock Exchange.
38. Provide technical assistance for development of the    In Progress.
    Iraq National Economic Survey Project.

                                                                                                     19
(This page intentionally left blank)




                                       20
